               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-04331-63




 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

     Boise VA Medical Center 

           Boise, Idaho 





February 13, 2014
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NIAAA      National Institute of Alcohol Abuse and
                                  Addiction
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                                    CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  AUD ........................................................................................................................     3

  MM ..........................................................................................................................    5

  DWHP Proficiency ..................................................................................................              6


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            7

  B. PACT Compass Metrics ....................................................................................                     9

  C. VISN Director Comments ..................................................................................                    13

  D. Facility Director Comments ...............................................................................                   14

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted EHR reviews during the week of December 2, 2013, for the
CBOCs and PCCs under the oversight of the Boise VA Medical Center and Veterans
Integrated Service Network 20.

Review Results:         We conducted three focused reviews and made no
recommendations in the Designated Women’s Health Provider Proficiency review. We
made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	 Staff consistently complete diagnostic assessments for patients with a positive
   alcohol screen.

	 Staff provide education and counseling for patients with a positive alcohol screen
   and drinking levels above National Institute of Alcohol Abuse and Addiction limits.

	 Staff consistently document the offer of further treatment to patients diagnosed with
   alcohol dependence.

	 Staff document a plan to monitor the alcohol use of patients who decline referral to
   specialty care.

	 RN Care Managers receive motivational interviewing and health coaching training
   within 12 months of appointment to the Patient Aligned Care Team.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Provide medication counseling/education that includes the fluoroquinolone.

	   Document the evaluation of patient’s level of understanding for the medication
     education.




VA OIG Office of Healthcare Inspections                                                           i
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 13-18, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                             JOHN D. DAIGH, JR., M.D. 

                                                            Assistant Inspector General for 

                                                               Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality. In general, our objectives are to:

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality, we
reviewed clinical and administrative records and discussed processes and validated
findings with managers and employees. The review covered the following three
activities:

   	   AUD

   	   MM

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
Details of the targeted study populations for the AUD, MM, and DWHP Proficiency
focused reviews are noted in Table 1.




VA OIG Office of Healthcare Inspections                                                           1
                                             CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scorea and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




a
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                            CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                          Results and Recommendations 

AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCC complied
with selected alcohol use screening and treatment requirements.1

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. AUD

 NM                   Areas Reviewed                                     Findings
        Alcohol use screenings are completed
        during new patient encounters, and at
        least annually.
  X     Diagnostic assessments are completed         Staff did not complete diagnostic
        for patients with a positive alcohol screen. assessments for 8 of 38 (21 percent)
                                                     patients who had positive alcohol use
                                                     screens.
  X     Education and counseling about drinking Staff did not provide education and
        levels and adverse consequences of           counseling for 6 of 24 patients who had
        heavy drinking are provided for patients     positive alcohol use screens and drinking
        with positive alcohol screens and drinking levels above NIAAA guidelines.
        levels above NIAAA guidelines.
  X     Documentation reflects the offer of further We did not find documentation of the offer of
        treatment for patients diagnosed with        further treatment for 3 of 7 patients
        alcohol dependence.                          diagnosed with alcohol dependence.
  X     For patients with AUD who decline            CBOC/PCC staff did not monitor the alcohol
        referral to specialty care, CBOC/PCC         use of two of three patients who declined
        staff monitored them and their alcohol       referral to specialty care.
        use.
        Counseling, education, and brief
        treatments for AUD are provided within 2
        weeks of positive screening.
  X     CBOC/PCC RN Care Managers have               We found that 6 of 25 RN Care Managers
        received MI training within 12 months of     did not receive MI training within 12 months
        appointment to PACT.                         of appointment to PACT.
  X     CBOC/PCC RN Care Managers have               We found that 12 of 25 RN Care Managers
        received National Center for Health          did not receive health coaching training
        Promotion and Disease Prevention             within 12 months of appointment to PACT.
        approved health coaching training (most
        likely TEACH for Success) within 12
        months of appointment to PACT.



VA OIG Office of Healthcare Inspections                                                             3
                                           CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


 NM           Areas Reviewed (continued)                              Findings
        The facility complied with any additional
        elements required by VHA or local policy.

1. 	 We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
     patients with a positive alcohol screen.

2. 	 We recommended that CBOC/PCC staff provide education and counseling for patients with
     a positive alcohol screen and drinking levels above NIAAA limits.

3. 	 We recommended that CBOC/PCC staff consistently document the offer of further
     treatment to patients diagnosed with alcohol dependence.

4. 	 We recommended that CBOC/PCC staff document a plan to monitor the alcohol use of
     patients who decline referral to specialty care.

5. 	 We recommended that CBOC/PCC RN Care Managers receive MI interviewing and health
     coaching training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                            4
                                            CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


MM

Clinical Oversight and Patient Education: Fluoroquinolones
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.2

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. Fluoroquinolones

 NM                  Areas Reviewed                                   Findings
  X     Clinicians documented the medication        We did not find documentation that
        reconciliation process that included the    medication reconciliation included the newly
        fluoroquinolone.                            prescribed fluoroquinolones in 13 of 38 (34
                                                    percent) patient EHRs.
        Written information on the patient’s
        prescribed medications was provided at
        the end of the outpatient encounter.
  X     Medication counseling/education for the     We did not find documentation of medication
        fluoroquinolone was documented in the       counseling that included the fluoroquinolone
        patients’ EHRs.                             in 10 of 38 (26 percent) patient EHRs.
  X     Clinicians documented the evaluation of     Clinicians did not document the level of
        each patient’s level of understanding for   understanding for 8 of 28 patients.
        the education provided.
        The facility complied with local policy.

6. 	 We recommended that staff document that medication reconciliation was completed at each
     episode of care where the newly prescribed fluoroquinolone was administered, prescribed,
     or modified.

7. 	 We recommended that staff provide medication counseling/education that includes the
     fluoroquinolone.

8. 	 We recommended that staff document the evaluation of each patient’s level of
     understanding for the medication education.




VA OIG Office of Healthcare Inspections                                                             5
                                              CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.3

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 4. DWHP Proficiency

  NM                   Areas Reviewed                                    Findings
          CBOC and PCC DWHPs maintained
          proficiency requirements.
          CBOC and PCC DWHPs were designated
          with the WH indicator in the Primary Care
          Management Model.




VA OIG Office of Healthcare Inspections                                                               6
                                                                                        CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                                                                     Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.b
The table below provides information relative to each of the CBOCs.

                                                                                   Uniquesc                                  Encountersc

                            Station                   CBOC
      Location     State               Localityd                  MHf        PCg        Otherh      All        MHf        PCg       Otherh        All
                               #                       Sizee
    Canyon
                    ID      531GG        Urban       Mid-Size     673       3,520       2,005      3,860      5,100      9,328       4,922       19,350
    County
    Twin Falls      ID      531GE        Rural       Mid-Size     365       2,991       1,105      3,106      3,392      9,144       2,265       14,801




b
  Includes all CBOCs in operation before March 31, 2013. 

c
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

d
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

e
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

f
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

g
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

h
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                   7
                                             CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


                                   CBOC Services Provided 

In addition to primary care integrated with WH and Mental Health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.i

                                                                                               Tele-Health
           CBOC            Specialty Care Servicesj           Ancillary Servicesk
                                                                                                Servicesl
    Canyon County                Dermatology                  MOVE! Programm                Tele Primary Care
                                   Podiatry               Diabetic Retinal Screening
                                                               Sleep Medicine
    Twin Falls                   Dermatology                  MOVE! Program                 Tele Primary Care
                                   Podiatry               Diabetic Retinal Screening
                                                                   Nutrition


 




i
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

j
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

k
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

l
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

m
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                          8
                                                                                      CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                                                                   Appendix B


                                                        PACT Compass Metrics

                                            FY 2013 Average 3rd Next Available in PC Clinics

                                18.0
                                16.0
    Average Number of Days




                                14.0
                                12.0
                                10.0
                                 8.0
                                 6.0
                                 4.0
                                 2.0
                                 0.0
                                        VHA Total             Boise (531)                   Twin Falls (531GE)             Canyon County (531GG)
                             OCT FY13     14.6                   11.4                               7.9                              8.5
                             NOV FY13     15.2                   11.8                               7.6                              9.4
                             DEC FY13     13.8                   10.3                               9.6                              9.4
                             JAN FY13     14.0                    8.0                               8.5                              9.0
                             FEB FY13     14.8                    9.7                               8.9                              8.4
                             MAR FY13     13.3                    9.1                               8.5                              5.2
                             APR FY13     14.4                   11.0                               7.5                              7.9
                             MAY FY13     16.0                   12.2                              12.1                              6.9
                             JUN FY13     14.2                   10.9                              16.1                              11.9
                             JUL FY13     14.6                   10.7                              10.3                              6.2
                             AUG FY13     15.7                   12.0                              10.6                              7.6
                             SEP FY13     13.4                    8.9                              11.5                              4.7


Data Definition.4 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.


VA OIG Office of Healthcare Inspections                                                                                                               9
                                                                                                   CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                                           FY 2013 Established PC Prospective Wait Times 7 Days

                                            100%




                                            80%
        Percentage of Patients Scheduled

          Within 7 Days of Desired Date





                                            60%




                                            40%




                                            20%




                                             0%
                                                   OCT     NOV     DEC     JAN      FEB    MAR      APR      MAY     JUN       JUL    AUG       SEP
                                                   FY13    FY13    FY13    FY13    FY13    FY13     FY13     FY13    FY13     FY13    FY13     FY13
      VHA Total                                    83.5%   81.1%   82.4%   82.6%   83.2%   83.6%    84.0%   84.0%    84.1%   84.3%    84.5%   84.7%
      Boise (531)                                  89.9%   91.1%   89.9%   90.0%   87.7%   90.5%    89.9%   92.1%    90.1%   88.6%    90.2%   88.1%
      Twin Falls (531GE)                           78.7%   73.5%   76.4%   84.1%   84.8%   83.1%    86.9%   86.6%    89.7%   86.2%    88.4%   87.3%
      Canyon County
                                                   91.8%   92.9%   86.2%   86.7%   93.2%   92.4%    92.6%   90.4%    89.3%   87.8%    93.8%   96.9%
         (531GG)




Data Definition.4 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                   10
                                                                                                               CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                                                 FY 2013 Ratio of ER Encounters While on Panel to

                                                                  PC Encounters While on Panel (FEE ER Included)

                                                          20%

                                                          18%
           Percentage of ER Encounters to PC Encounters



                                                          16%

                                                          14%

                                                          12%

                                                          10%

                                                          8%

                                                          6%

                                                          4%

                                                          2%

                                                          0%
                                                                OCT     NOV     DEC     JAN      FEB    MAR        APR     MAY      JUN      JUL     AUG       SEP
                                                                FY13    FY13    FY13    FY13    FY13    FY13       FY13    FY13     FY13    FY13     FY13     FY13
         VHA Total                                              16.3%   16.3%   16.4%   16.3%   16.3%   16.3%     16.1%    16.1%   16.0%    15.9%   15.8%    15.7%
         Boise (531)                                            17.1%   17.1%   17.4%   17.2%   17.2%   17.4%     17.3%    17.6%   17.7%    17.8%   18.1%    17.9%
         Twin Falls (531GE)                                     6.2%    6.4%    6.5%    6.6%    6.1%    6.0%       5.9%    6.2%     6.4%    6.5%     6.4%     6.2%
         Canyon County
                                                                14.2%   14.2%   14.1%   14.1%   14.1%   13.8%     13.8%    13.1%   13.3%    13.2%   12.5%    12.0%
            (531GG)


 Data Definition.4 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the
 total VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                              11
                                                                                      CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID



                                      FY 2013 2‐Day Contact Post Discharge Ratio
        100%

         90%

         80%

         70%

         60%

         50%

         40%

         30%

         20%

         10%

          0%
                          VHA Total                      Boise (531)                   Twin Falls (531GE)            Canyon County (531GG)
     OCT FY13              52.8%                            16.0%                            11.1%                           13.6%

     NOV FY13              52.9%                            17.9%                            14.3%                           13.5%
     DEC FY13              51.5%                            56.7%                            55.0%                           53.8%

     JAN FY13              57.2%                            66.7%                            76.0%                           76.9%
     FEB FY13              60.4%                            75.2%                            70.0%                           81.8%

     MAR FY13              64.4%                            78.7%                            70.4%                           86.7%
     APR FY13              65.5%                            76.4%                            66.7%                           80.0%

     MAY FY13              66.1%                            79.5%                            70.4%                           75.9%
     JUN FY13              70.1%                            88.6%                            73.1%                           88.5%

     JUL FY13              71.1%                            82.9%                            83.3%                           81.5%
     AUG FY13              72.7%                            83.0%                            87.5%                          100.0%

     SEP FY13              68.9%                            76.6%                            61.5%                           80.8%




Data Definition.4 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric.



VA OIG Office of Healthcare Inspections                                                                                                                12
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                       Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


           Date:        January 16, 2014

          From:         Director, VISN 20 (10N20)

       Subject: 	       CBOC and PCC Reviews of the Boise VA Medical
                        Center, Boise, ID

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews at the Boise VA Medical Center, Boise,
          Idaho.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Gilbert, Survey Coordinator, VISN 20 at (360) 567-
          4678.



       (original signed by:)

       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                          13
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                       Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs 	                                   Memorandum


           Date:        January 14, 2014

          From:         Director, Boise VA Medical Center (531/00)

       Subject: 	       CBOC and PCC Reviews of the Boise VA Medical
                        Center, Boise, ID

             To:        Director, VISN 20 (10N20)

       1. Thank you for the opportunity to review the report on the Office of
          Inspector General Community Based Outpatient Clinic and Primary
          Care Clinic Reviews at the Boise VA Medical Center during the week
          of December 2, 2013. We concur with the findings and
          recommendations and will ensure that actions to correct them are
          completed as described.

       2. Please find attached our facility responses to each recommendation,
          including the status of the corrective action plans.

       3. If you have any additional questions or need further information, please
          contact Dr. Jean Anderson, Chief, Quality and Performance
          Improvement at 208-422-1105.



       (original signed by:)

       David Wood, MHA, FACHE
       Director, Boise VA Medical Center




VA OIG Office of Healthcare Inspections                                                          14
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: June 30, 2014

Facility response: A CBOC/PCC alcohol screening and treatment Standard Operating
Procedure (SOP), clarifying roles and responsibilities of professional staff for alcohol
use screening and further diagnostic assessments for patients with a positive alcohol
screen, will be developed and implemented. The clinical reminder to ensure that
patients with a positive alcohol screen receive further diagnostic assessments will be
updated and implemented. Applicable CBOC/PCC staff will be educated on the new
SOP and updated clinical reminder template.

Compliance with completion of diagnostic assessments for patients with a positive
alcohol screen will be monitored monthly. Monthly auditing results will be reported to the
Clinical Executive Board.

Recommendation 2. We recommended that CBOC/PCC staff provide education and
counseling for patients with a positive alcohol screen and drinking levels above NIAAA
limits.

Concur

Target date for completion: June 30, 2014

Facility response: A CBOC/PCC alcohol screening and treatment Standard Operating
Procedure (SOP), clarifying professional staff roles and responsibilities for providing and
documenting education and counseling for patients with a positive alcohol screen and
drinking levels about NIAAA limits, will be developed and implemented. Applicable
CBOC/PCC staff will be educated on the new SOP.

Compliance with documenting patient education and counseling provided for patients
with a positive alcohol screen and drinking levels above NIAAA limits will be monitored
monthly. Monthly auditing results will be reported to the Clinical Executive Board.

Recommendation 3. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.



VA OIG Office of Healthcare Inspections                                                          15
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID


Concur

Target date for completion: June 30, 2014

Facility response: The clinical reminder to ensure that staff offer and document further
treatment to patients diagnosed with alcohol dependence will be updated and
implemented. Applicable CBOC/PCC staff will be educated on the updated clinical
reminder template.

Compliance with documenting the offer of further treatment to patients diagnosed with
alcohol dependence will be monitored monthly. Monthly auditing results will be reported
to the Clinical Executive Board.

Recommendation 4. We recommended that CBOC/PCC staff document a plan to
monitor the alcohol use of patients who decline referral to specialty care.

Concur

Target date for completion: June 30, 2014

Facility response: A CBOC/PCC alcohol screening and treatment Standard Operating
Procedure (SOP), clarifying roles and responsibilities of professional staff for monitoring
alcohol use of patients who decline referral to specialty care will be developed and
implemented. The clinical reminder to ensure monitoring of alcohol use of these patients
will be updated and implemented. Applicable CBOC/PCC staff will be educated on the
new SOP and updated clinical reminder template.

Compliance with documenting a plan to monitor the alcohol use of patients who decline
referral to specialty care will be monitored monthly. Monthly auditing results will be
reported to the Clinical Executive Board.

Recommendation 5. We recommended that CBOC/PCC RN Care Managers receive
MI interviewing and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: June 30, 2014

Facility response: All current CBOC/PCC RN Care Managers who have not received
prior Motivational Interviewing (MI) and health coaching (TEACH) training have been
scheduled to begin training in January 2014. Training will be confirmed and tracked in
TMS. A process was developed to ensure that newly hired CBOC/PCC RN Care
Managers receive TMS and in-person MI and health coaching (TEACH) training within
90 days of assignment to PACT. The chief nurse executive or designee is responsible
for     assuring     these     changes     are     implemented       and    sustained.




VA OIG Office of Healthcare Inspections                                                          16
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID




Compliance for ensuring that all CBOC/PCC RN Care Managers have completed MI
and health coaching training will be monitored monthly and reported to the Nurse
Executive Committee and the Clinical Executive Board.

Recommendation 6. We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: June 30, 2014

Facility response: All providers caring for outpatients will be educated regarding the
need to complete medication reconciliation at each episode of care where a newly
prescribed fluoroquinolone was administered, prescribed, or modified. The Medication
Reconciliation Reminder template will be updated to include documentation of patient
counseling and education about newly prescribed medications. All providers caring for
outpatients will be educated about the updated clinical reminder template.

Compliance with documenting that medication reconciliation was completed at each
episode of care where the newly prescribed medication was administered, prescribed,
or modified will be monitored monthly. Monthly auditing results will be reported to the
Clinical Executive Board.

Recommendation 7. We recommended that                               staff   provide     medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: June 30, 2014

Facility response: All providers caring for outpatients will be educated regarding the
need for medication counseling and education, including fluoroquinolone prescriptions.
The Medication Reconciliation Reminder template will be updated to include
documentation of patient counseling and education about newly prescribed
medications. All providers caring for outpatients will be educated about the updated
reminder template.

Compliance with documenting patient medication counseling and education that
includes fluoroquinolones will be monitored monthly. Monthly auditing results will be
reported to the Clinical Executive Board.

Recommendation 8. We recommended that staff document the evaluation of each
patient’s level of understanding for the medication education.

Concur


VA OIG Office of Healthcare Inspections                                                          17
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID




Target date for completion: June 30, 2014

Facility response: All providers caring for outpatients will be educated regarding the
need to evaluate and document the patient’s and/or their caregivers’ understanding of
medication education. The Medication Reconciliation Reminder template will be
updated to include documentation of patient and/or caregiver understanding of
counseling and education about newly prescribed medications. All providers caring for
outpatients will be educated on the updated reminder template.

Compliance with documenting patient and/or caregiver understanding of medication
education will be monitored monthly. Monthly auditing results will be reported to the
Clinical Executive Board.




VA OIG Office of Healthcare Inspections                                                          18
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Review	                 Mary Noel Rees, MPA, Team Leader
Contributors 	          Carol Lukasewicz, RN, BSN
                        Sarah Mainzer, RN, JD
                        Sami O’Neill, MA
                        Susan Tostenrude, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          19
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                       Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 20 (10N20)
Director, Boise VA Medical Center (531/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mike Crapo, Jeff Merkley, James E. Risch, Ron Wyden
U.S. House of Representatives: Raul Labrador, Mike Simpson, Greg Walden


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          20
                                          CBOC and PCC Reviews at Boise VA Medical Center, Boise, ID
                                                                                       Appendix G

                                            Endnotes

1
  References used for the AUD review included:
 National Center for Health Promotion and Disease Prevention (NCP) and Office of Veteran Health Education
   and Information (NVEI), Patient Education: TEACH for Success, 2010. Retrieved from
   http://www.prevention.va.gov/HealthPOWER_Prevention_News_Summer_2010_VHEI.asp on
   January 17, 2014.
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
2
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.

 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013. 

3
  References used for the DWHP review included:

 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services 

   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.

 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

4
  Reference used for PACT Compass data graphs: 

 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 





VA OIG Office of Healthcare Inspections                                                               21
